LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 20, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

LIEUTENANT PATRICK H. STOCKDALE, ET AL. V. DISTRICT ATTORNEY GENERAL
KIM R. HELPER

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on May 20,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following Respondent:
RESPONDENT:
Heather C. Ross
Senior Assistant Attorney General
Civil Law Division
Office of Tennessee Attorney General
UBS Building, 18th Floor
315 Deaderick Street
Nashville, TN 37243
(615) 532-2559
Heather.Ross@ag.tn.gov
Stephanie.Bergmeyer@ag.tn.gov
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of May 2021.

